OIG Audit Report GR-40-00-010
Office of Justice Programs Grant for the Shady Grove Missionary Baptist Church Drug-FreeCommunities Support ProgramGreenville, MississippiGrant No. 98-JN-FX-0093
Audit Report GR-40-00-010April 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 98-JN-FX-0093 awarded by the U.S. Department of Justice, Office of Justice Programs, Office of Juvenile Justice and Delinquency Prevention (OJJDP), to the Shady Grove Missionary Baptist Church, Greenville, Mississippi (grantee).  The OJJDP awarded the grantee federal funding in the amount of $100,000 under the Drug-Free Communities Act of 1997 to establish a Drug-Free Communities Support Program.   The grantee was required to provide matching funds in the amount of $113,628 with funding from non-federal sources.  

The grant period was October 1, 1998 through September 30, 1999.  The purpose of the program was to increase citizen participation and strengthen community anti-drug efforts in order to reduce substance abuse among youth in communities.    
	
In brief, our audit determined the grantee:


Did not maintain adequate accounting records for related grant expenditures. 
             Further, the grantee included costs that were not allowable under the
             budget categories.  As a result, we question  $17,835 in associated 
	 costs as unsupported and unallowable.

	Could not provide documentation to support matching contributions.  Therefore, we 
	 question the matching funds of $113,628.

	Did not submit accurate financial status reports. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our Scope and Methodology appear in Appendix II.